October 20, 2020
Writer’s Direct Contact
(202) 220-1107
(213) 683-5112 FAX
Ginger.Anders@mto.com

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20543
Re:

United States v. Tsarnaev, No. 20-443

Dear Mr. Harris:
I am writing on behalf of respondent in the above-referenced case to request an extension
of time of 32 days, to and including Monday, December 7, 2020, for the filing of a brief in
opposition to the petition for a writ of certiorari. Absent an extension, the brief would be due on
Thursday, November 5, 2020. This is the first extension respondent has sought. Petitioner does
not oppose this request.
Thank you very much for your time and assistance on this matter.

Very truly yours,

Ginger D. Anders

October 20, 2020
Page 2

cc: All counsel
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
David Patton
Deirdre D. von Dornum
Daniel Habib
Federal Defenders of New York, Inc.
52 Duane Street, 10th Floor
New York, NY 10007
Cliff Gardner
Law Offices of Cliff Gardner
1448 San Pablo Ave.
Berkeley, CA 94702

